         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Report on Critical Asset Vulnerability
and Risk Assessments at the Power
Marketing Administrations--Follow-
up Audit




DOE/IG-0842                            October 2010
                                   Department of Energy
                                     Washington, DC 20585
                                          October 7, 2010

MEMORANDUM FOR THE ADMINISTRATORS, BONNEVILLE POWER, WESTERN
               AREA POWER, AND SOUTHWESTERN POWER
               ADMINISTRATIONS


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                   INFORMATION: Audit Report on “Critical Asset Vulnerability and
                           Risk Assessment at the Power Marketing Administrations--Follow-up
                           Audit”

BACKGROUND

The Department of Energy's largest Power Marketing Administrations (PMAs), Bonneville,
Western Area, and Southwestern, provide wholesale electric power to utilities for use in homes,
hospitals, financial institutions and military installations. Serving the electricity supply needs of
millions of citizens in the western part of the United States, these PMAs maintain an elaborate
and extensive infrastructure that includes electrical substations, high-voltage transmission lines
and towers, and power system control centers. To protect these assets, the PMAs follow safety
and security requirements established by the Department, the North American Electric
Reliability Corporation (NERC), and the Department of Homeland Security (Homeland
Security). Under established policy, the PMAs are required to conduct vulnerability and risk
assessments of their most critical assets to: evaluate existing security systems; analyze current
threat information; identify security enhancements needed to reduce risk; and, document the
level of risk PMA management is willing to accept on individual critical assets.

In 2003, the Office of Inspector General reported in our Audit of Power Marketing
Administration Infrastructure Protection (OAS-B-03-01, April 2003) that Bonneville had
initiated, but not yet completed vulnerability and risk assessments; Western had conducted
inadequate assessments; and, Southwestern had not conducted any assessments. Given the
importance of these efforts to safeguarding the Nation's electrical infrastructure, we initiated this
audit to determine whether the PMAs had conducted vulnerability and risk assessments.

RESULTS OF AUDIT

Many PMA efforts essential to identifying current risks or threats and mitigating those risks
remained incomplete at the time of our audit. While a number of activities relevant to critical
infrastructure protection had been initiated, the PMA's had not:
       Completed and updated, when appropriate, all required vulnerability and risk
       assessments; and,

       Conducted required tests to ensure that security measures for physical assets were
       operating as designed.

Further, Bonneville and Western had not implemented security enhancements recommended in
completed risk assessments. One incident vividly illustrated the importance of actually
implementing security enhancements recommended in risk assessments. A 2002 risk assessment
included a recommendation to install a perimeter intrusion detection system at one Bonneville
site. This recommendation was never implemented. Had such a system been operational, it may
have provided early detection of a 2009 break-in that resulted in significant equipment damage,
preliminarily estimated at $750,000.

                              Conducting and Updating Assessments

The PMAs had not completed assessments and had not consistently completed or updated
existing assessments on all of their power system monitoring control centers, large power
substations, and switchyards; all of which had been identified as critical assets. Specifically as
of February 2010:

       Bonneville had not completed assessments on 24 of its 60 critical assets. Of the 36
       assessments that had been completed, 32 had been done over 4 years ago. We found that
       only nine of those assessments had been updated;

       Western had not completed assessments on 19 of its 51 critical assets. Of the 32
       assessments that had been completed, 27 had been done over 6 years ago. We found that
       only four of those assessments had been updated; and,

       Southwestern had completed an assessment of its one critical asset, an operations center,
       more than 5 years ago, but had not updated it.

Bonneville, Western, and Southwestern all used the Risk Assessment Methodology-
Transmission (RAM-T) to assess critical asset security vulnerabilities and risk. RAM-T was
established by the Interagency Forum for Infrastructure Protection to develop vulnerability and
risk assessment tools to improve the physical security of critical infrastructure. RAM-T
recommends updating assessments at least every 2 years to reflect risks and vulnerabilities
resulting from new internal/external threats identified, for example, by law enforcement officials.
Similar Federal entities involved in generating hydroelectricity for the power grid, such as the
U.S. Army Corps of Engineers and the Bureau of Reclamation, recommend updating security
assessments at least once every three years. Likewise, Western had a policy requiring updates of
its assessments every three years. Neither Bonneville nor Southwestern had policies concerning
the frequency of updates.

The PMAs also use other tools and methodologies, which complement the RAM-Ts, including
NERC compliance assessments for cyber security and Department of Homeland Security

                                                 2
requirements, to address their security needs. Specifically, the PMAs told us that they prepared
plans and conducted assessments to ensure compliance with NERC Critical Infrastructure
Protection (CIP) standards, which require protection of locations in which critical cyber assets
are housed, such as computer rooms, telecommunication rooms, and operations centers. These
efforts resulted in PMA installation of cameras and alarm and access control devices to increase
the protection of critical cyber assets. For example, Bonneville pointed out that it had installed
400 cameras and 2,500 alarms and access control devices at approximately 90 of its facilities
including 55 of its 60 critical asset facilities.

Although the PMAs told us that they are compliant with NERC CIP standards, compliance with
these standards does not encompass all the risks and vulnerabilities considered in RAM-T
assessments, nor the physical security enhancements needed to address such risks and
vulnerabilities. Specifically, vulnerabilities and risks associated with critical assets such as
power circuit breakers, capacitor banks which maintain power line voltage, and backup
generators located in critical asset yards were not fully covered by the PMA efforts to comply
with NERC CIP standards. Further, compliance with NERC CIP standards does not fully meet
Department requirements for considering updated threat information when making decisions
regarding security postures, a key element of the risk assessment process.

Bonneville officials told us that they are developing a Graded Security Plan to integrate
Department, NERC, and Homeland Security requirements and guidelines. The Plan, which is
pending review and approval by Bonneville's senior management, will establish Bonneville's
requirements for performance assessments; completion, tracking and re-validation of previous
risk assessments; implementation of approved recommendations; and, prioritization of resources.
We concluded that these are very positive steps toward meeting Bonneville's infrastructure
protection goals.

                   Compliance with Department Performance Testing Policies

While the PMAs had established procedures to meet NERC CIP standards for testing the
functionality of cyber assets, such as access points into Supervisory Control and Data
Acquisition systems used in electricity transmission systems, they had not complied with
Department security performance testing policies identified in Department Order 470.3B,
Graded Security Protection Policy; Department Manual 470.4-2A, Physical Protection; and,
Department Manual 470.4-1, Safeguards and Security Program Planning for physical assets.
These policies, for example, require tests to ensure that security protection measures are
performing as intended. Such tests are important to identify security vulnerabilities in critical
assets such as substations and control centers.

The failure to test security measures is a long-standing issue. In 2007, Bonneville had identified
the lack of testing as a problem in an assessment of its highest ranked critical asset and noted that
without a testing program, security effectiveness could only be subjectively estimated based on
knowledge of what security components have been installed and expectations of what the
components are supposed to do. Again in 2009, the Department noted that Bonneville lacked a
performance testing program.



                                                 3
We found that Western and Southwestern also had not established performance testing programs
per Department policy to ensure the security of their critical assets. The lack of testing limits the
PMAs' ability to identify vulnerabilities and make improvements where necessary.

                    Implementation of Recommended Security Enhancements

While Bonneville and Western had installed many beneficial security enhancements to protect
their critical assets, they had not, for the most part, implemented a major physical control system
recommended in previously completed risk assessments for critical assets. Specifically, neither
Bonneville nor Western had implemented electronic perimeter intrusion motion detection and
alarm systems to protect critical assets as recommended in the assessments. These systems were
recommended to protect high voltage equipment in the critical asset yard, including power circuit
breakers, capacitor banks which maintain power line voltage, and backup generators.
Specifically, Bonneville assessments conducted between 2001 and 2008 recommended the
installation of electronic detection systems on 36 critical assets. As of February 2010, only
seven such systems had been installed. Similarly, Western assessments conducted in 2002 and
2008 recommended the installation of 24 electronic perimeter systems to protect critical assets.
Western implemented only 7 of the recommended 24 systems and also implemented systems for
5 other critical assets which had not been recommended in the prior risk assessments. We were
unable to determine why individual electronic perimeter intrusion systems had not been installed,
or why other such systems were implemented when they had not been recommended, because, as
noted above, the applicable assessments had not been updated. As a result, Bonneville and
Western lacked documentation needed to justify their decisions to forego recommended
enhancements and accept the additional risk.

Western and Bonneville officials told us that they had not made the improvements, in general,
because perimeter intrusion systems were subject to false alarms. However, officials
acknowledged that, currently, false alarm concerns are of less importance because perimeter
intrusion technology had improved since the assessments were completed.

The potential risks and negative consequences due to the lack of a perimeter intrusion detection
system to protect equipment in the critical asset yard are significant. For example, at one site,
Bonneville's assessment noted that, without a perimeter system, the ability to detect, delay and
assess intrusion of the facility was low and that the potential negative consequences of such an
event could include loss of life, economic losses to revenue and property in excess of
$50 million, and loss of ability to transfer power to large population centers.

Further, although Western and Southwestern had developed tracking systems to document the
disposition of recommended security improvements, Bonneville had not.

                                           Risks of Harm

Protecting critical infrastructure is essential to the Nation's security and economic vitality. Any
successful infrastructure attack, especially given Bonneville, Western and Southwestern's scope
of operations, could significantly disrupt the functioning of government and business, potentially
producing a cascading effect far beyond the physical location of the incident. The PMAs have

                                                  4
very costly infrastructures, including control centers, electrical transmission lines, and
substations that deliver wholesale power to utilities which provide service in thousands of
homes, businesses and government agencies. Without appropriate assessments, testing, and
protection, these assets are at risk of unauthorized access, theft, or sabotage that could result in
significant physical and economic damage. These concerns are not merely theoretical. In
September 2009, intruders broke into one of Bonneville's critical substations through the
perimeter fence and started a fire that resulted in loss of power to two 500 kilovolt lines and the
substation. Bonneville preliminarily estimated the damages at $750,000. Intruders had also
broken into this substation in 2008. A 2002 RAM-T assessment on the substation had
recommended installation of an electronic perimeter intrusion detection system as necessary to
protect one of the site's "most vulnerable" areas. Bonneville had neither implemented the 2002
recommendation nor updated the substation's assessment to reflect the reasons it had decided to
forego the enhancement. Thieves also broke into another of Bonneville's substations in 2008,
again through the perimeter. Bonneville had not completed a RAM-T assessment of this critical
asset. Bonneville officials acknowledged these risks and told us that they had initiated a security
technology application partnership with the Department in November 2009 to implement a state-
of-the-art perimeter intrusion detection system at the critical asset where the September 2009
intrusion occurred. In addition, Bonneville officials stated that they are submitting for review a
risk-based proposal for installation of perimeter intrusion detection systems at the most critical
locations.

                                           Impediments

Officials at all three PMAs stated that they understand the risks and vulnerabilities associated
with their critical infrastructure, but that they simply did not have the resources needed to
comply with all requirements. They contended that they had used available resources for higher
priorities. In 2006, for example, Bonneville had identified the resources needed to implement
recommended enhancements, such as perimeter intrusion detection systems. However, new
NERC CIP requirements effective in 2006, such as installing access card readers and establishing
cyber security protection protocols for critical assets, diverted PMA resources.

In addition to the lack of resources, Western and Southwestern officials reported that they were
unclear about the applicability of security performance testing policies, since the operating
environment of the PMAs differs from other entities in the Department, for example, in regard to
nuclear oversight. Western and Southwestern acknowledged the policies applied when we
showed them that the PMAs had been identified in the lists of applicable entities included in the
Department's directives.

RECOMMENDATIONS

To help reduce the risk of damage to critical power-related assets, we recommend that the
Administrators of the Bonneville, Western Area, and Southwestern Power Administrations:

     1. Reevaluate resource allocation priorities with a view toward completing required
        assessments and implementing needed protective measures;



                                                 5
     2. Establish and implement policies and resource-loaded schedules to ensure that critical
        asset vulnerability and risk assessments are conducted and updated timely and that the
        status, decisions, and justifications regarding implementation of recommended security
        enhancements are documented; and,

     3. Implement security system performance-based testing consistent with Department
        policies.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

Bonneville, Western, and Southwestern generally agreed with the recommendations and
provided planned actions which were responsive to the report findings and recommendations.
However, Bonneville and Southwestern stated that the report did not fully acknowledge the full
scope of their efforts to protect their critical assets and to utilize other tools and methodologies to
assess risks and vulnerabilities. These included extensive efforts to implement additional
enhancements to comply with NERC CIP critical cyber asset standards.

We agree that the additional assessments completed and enhancements implemented by the
PMAs to comply with NERC CIP standards provided increased physical security protection of
the PMA's critical cyber assets and revised the report accordingly to recognize these efforts. The
comments by each of the PMAs, which are included in their entirety in Attachment 3, further
elaborate on these efforts. However, as discussed in the report, the PMA actions to ensure that
security over critical cyber assets comply with NERC CIP standards, do not fully address the
risks and vulnerabilities of non-cyber critical assets. The report identified additional areas of
improvement and associated recommended actions to strengthen the PMAs existing efforts to
which the PMAs, to their credit, provided responsive action plans.

Attachments

cc: Deputy Secretary
    Chief of Staff
    Chief Health, Safety, and Security Officer, HS-1




                                                   6
                                                                                   Attachment 1



                      OBJECTIVE, SCOPE, AND METHODOLOGY


OBJECTIVE

The audit objective was to determine whether the Power Marketing Administrations (PMAs) had
conducted vulnerability and risk assessments.

SCOPE

The audit was performed from August 2009 to August 2010, at the Department of Energy's
(Department) Bonneville Power Administration in Portland, Oregon; Southwestern Power
Administration in Tulsa, Oklahoma; and, Western Area Power Administration in Lakewood,
Colorado. We excluded the Department's Southeastern Power Administration in Elberton,
Georgia, because it does not own transmission assets.

METHODOLOGY

To accomplish our objective, we:

      Reviewed Department, North American Electric Reliability Corporation and PMA
      security planning, protection, and assessment laws, regulations, policies and procedures;

      Reviewed PMA documents and electronic spreadsheets used as the basis for conducting
      and updating critical asset vulnerability and risk assessments;

      Interviewed key PMA and Department officials responsible for implementing security
      protection policies and procedures regarding critical asset vulnerability and risk
      assessments; and,

      Reviewed prior Office of Inspector General and Government Accountability Office
      reports.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. The audit included tests of
controls and compliance with laws and regulations related to PMA critical asset vulnerability and
risk assessments. Because our review was limited, it would not necessarily have disclosed all
internal control deficiencies that may have existed at the time of our audit. We also assessed
performance measures in accordance with the Government Performance and Results Act of 1993
and found that the PMAs had not established performance measures specifically related to
conducting and updating critical asset vulnerability and risk assessments. We did not assess the


                                               7
                                                                    Attachment 1 (continued)


reliability of computer-processed data since we did not rely on it to accomplish our audit
objective. Exit conferences were held with Southwestern and Bonneville on September 27 and
28, 2010, respectively. Western waived the exit conference.




                                             8
                                                                                     Attachment 2


                                      PRIOR AUDIT REPORTS

Office of Inspector General Reports

   Power Marketing Administration Infrastructure Protection (OAS-B-03-01, April 2003)
   disclosed concerns regarding the Power Marketing Administration's (PMA) critical asset
   assessment efforts. The report found that Bonneville had initiated, but not yet completed
   vulnerability and risk assessments on its critical assets; Western Area Power Administration
   had conducted assessments but they were inadequate; and, Southwestern Power
   Administration had not conducted assessments. The report recommended the PMAs conduct
   vulnerability and risk assessments on their critical assets and the PMAs agreed to do so.

Government Accountability Office Report

   Critical Infrastructure Protection: Challenges for Selected Agencies and Industry Sectors
   (GAO-03-233, February 2003). This report found that four agencies, including the
   Department of Energy, had not fully implemented Federal requirements to protect critical
   infrastructure from attack. The report also stated that steps were needed to conduct and
   update vulnerability assessments, correct identified vulnerabilities, and establish milestones
   and resource requirements to complete these efforts. Finally, the report stated that the
   assessments need to consider physical vulnerabilities of the assets as well as changes in the
   threat environment.




                                                9
     Attachment 3




10
     Attachment 3 (continued)




11
     Attachment 3 (continued)




12
     Attachment 3 (continued)




13
     Attachment 3 (continued)




14
     Attachment 3 (continued)




15
                                                             IG Report No. DOE/IG-0842

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:
                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
